STATE OF MICHIGAN
DEPARTMENT OF ATTORNEY GENERAL

P.O. BOX 30212
LANSING, MICHIGAN 48909
DANA NESSEL
ATTORNEY GENERAL

July 23, 2020

Scott Harris, Clerk
United States Supreme Court
One First Street, N.E.
Washington, D.C. 20543
Re:

Whitmer v. SawariMedia
United States Supreme Court No. 20A1

Dear Mr. Harris:
On July 10, 2020, the Michigan State Defendants filed an emergency
application for stay of an injunctive order from the Eastern District of Michigan.
On July 23, 2020, the plaintiffs informed this Court they filed a notification of
voluntary dismissal of their action in the district court under Federal Rule of Civil
Procedure 41(a)(1)(A)(i).
The Michigan State Defendants now withdraw their emergency application to
stay in this Court.
Thank you for your time and consideration.
Sincerely,

Fadwa A. Hammoud
Solicitor General
517-335-7628

FAH:hlg
Enclosure (Proof of Service)
cc:
Michael J. Steinberg, Counsel of Record for Plaintiffs

